                                                    21314                  Federal Register / Vol. 78, No. 69 / Wednesday, April 10, 2013 / Proposed Rules

                                                    making it necessary to retain the                       List of Subjects for 42 CFR Part 411                   DEPARTMENT OF HEALTH AND
                                                    electronic prescribing capability                                                                              HUMAN SERVICES
                                                    requirement in the electronic health                      Kidney diseases, Medicare, Physician
                                                    records exception.                                      Referral, Reporting and recordkeeping                  Office of Inspector General
                                                                                                            requirements.
                                                       The RFA requires agencies to analyze
                                                    options for regulatory relief of small                    For the reasons set forth in the                     42 CFR Part 1001
                                                    entities, if a rule has a significant impact            preamble, the Centers for Medicare &                   RIN 0936–AA03
                                                    on a substantial number of small                        Medicaid Services proposes to amend
                                                    entities. For purposes of the RFA, small                42 CFR part 411 as set forth below:                    Medicare and State Health Care
                                                    entities include small businesses,                                                                             Programs: Fraud and Abuse;
                                                    nonprofit organizations, and small                      PART 411—EXCLUSIONS FROM                               Electronic Health Records Safe Harbor
                                                    governmental jurisdictions. Most                        MEDICARE AND LIMITATIONS ON                            Under the Anti-Kickback Statute
                                                    hospitals and most other providers and                  MEDICARE PAYMENT
                                                                                                                                                                   AGENCY:  Office of Inspector General
                                                    suppliers are small entities, either by
                                                                                                                                                                   (OIG), HHS.
                                                    nonprofit status or by having revenues                  ■ 1. The authority citation for part 411
                                                    of $7.0 million to $34.5 million in any                 continues to read as follows:                          ACTION: Proposed rule.
                                                    1 year. Individuals and States are not                    Authority: Secs. 1102, 1860D–1 through               SUMMARY:   In this proposed rule, the
                                                    included in the definition of a small                   1860D–42, 1871, and 1877 of the Social                 Office of Inspector General (OIG)
                                                    entity. The Secretary has determined                    Security Act (42 U.S.C. 1302, 1395w–101                proposes to amend the safe harbor
                                                    that this proposed rule would not have                  through 1395w–152, 1395hh, and 1395nn).                regulation concerning electronic health
                                                    a significant economic impact on a                                                                             records items and services, which
                                                    substantial number of small entities.                   ■ 2. Section 411.357 is amended by:
                                                                                                                                                                   defines certain conduct that is protected
                                                       In addition, section 1102(b) of the Act              ■ A. Revising paragraph (w)(2).                        from liability under the Federal anti-
                                                    requires us to prepare a regulatory                     ■ B. Removing and reserving paragraph                  kickback statute in the Social Security
                                                    impact analysis if a rule may have a                    (w)(11).                                               Act (the Act). The proposed
                                                    significant impact on the operations of                                                                        amendments include an update to the
                                                                                                            ■ C. In paragraph (w)(13), removing the
                                                    a substantial number of small rural                                                                            provision under which electronic health
                                                                                                            date ‘‘December 31, 2013’’ and adding
                                                    hospitals. This analysis must conform to                                                                       records software is deemed
                                                                                                            the date ‘‘December 31, 2016’’ in its
                                                    the provisions of section 603 of the                                                                           interoperable; removal of the electronic
                                                                                                            place.
                                                    RFA. For purposes of section 1102(b) of                                                                        prescribing capability requirement; and
                                                    the Act, we define a small rural hospital                 The revision reads as follows:                       extension of the sunset provision. In
                                                    as a hospital that is located outside of                § 411.357 Exceptions to the referral                   addition, OIG is requesting public
                                                    a Metropolitan Statistical Area for                     prohibition related to compensation                    comment on other changes it is
                                                    Medicare payment regulations and has                    arrangements.                                          considering.
                                                    fewer than 100 beds. The Secretary has                  *     *     *     *     *
                                                    determined, that this proposed rule                                                                            DATES:   To assure consideration,
                                                    would not have a significant impact on                    (w) * * *                                            comments must be delivered to the
                                                    the operations of a substantial number                                                                         address provided below by no later than
                                                                                                              (2) The software is interoperable (as
                                                    of small rural hospitals.                                                                                      5 p.m. Eastern Standard Time on June
                                                                                                            defined in § 411.351) at the time it is
                                                                                                                                                                   10, 2013.
                                                       Section 202 of the Unfunded                          provided to the physician. For purposes
                                                                                                            of this paragraph (w), software is                     ADDRESSES: In commenting, please
                                                    Mandates Reform Act of 1995 also
                                                                                                            deemed to be interoperable if a                        reference file code OIG–404–P. Because
                                                    requires that agencies assess anticipated
                                                                                                            certifying body authorized by the                      of staff and resource limitations, we
                                                    costs and benefits before issuing any
                                                                                                            National Coordinator for Health                        cannot accept comments by facsimile
                                                    rule whose mandates require spending
                                                                                                            Information Technology has certified                   (fax) transmission. However, you may
                                                    in any 1 year of $100 million in 1995
                                                                                                            the software to any edition of electronic              submit comments using one of three
                                                    dollars, updated annually for inflation.
                                                                                                            health record certification criteria                   ways (no duplicates, please):
                                                    In 2013, that threshold is approximately
                                                                                                            identified in the then-applicable                         1. Electronically. You may submit
                                                    $141 million. This proposed rule would
                                                                                                            definition of Certified EHR Technology                 electronically through the Federal
                                                    have no consequential effect on State,
                                                                                                            in 45 CFR part 170, on the date it is                  eRulemaking Portal at http://
                                                    local, or tribal governments or on the
                                                                                                            provided to the physician.                             www.regulations.gov. (Attachments
                                                    private sector.
                                                                                                                                                                   should be in Microsoft Word, if
                                                       Executive Order 13132 establishes                    *     *     *     *     *                              possible.)
                                                    certain requirements that an agency                     (Catalog of Federal Domestic Assistance
                                                                                                            Program No. 93.773, Medicare—Hospital
                                                                                                                                                                      2. By regular, express, or overnight
                                                    must meet when it promulgates a                                                                                mail. You may mail your printed or
                                                                                                            Insurance; and Program No. 93.774,
                                                    proposed rule (and subsequent final                                                                            written submissions to the following
                                                                                                            Medicare—Supplementary Medical
                                                    rule) that imposes substantial direct                   Insurance Program)                                     address: Patrice Drew, Office of
                                                    requirement costs on State and local                                                                           Inspector General, Department of Health
                                                    governments, preempts State law, or                       Dated: January 24, 2013.
                                                                                                                                                                   and Human Services, Attention: OIG–
                                                    otherwise has Federalism implications.                  Marilyn Tavenner,
                                                                                                                                                                   404–P, Room 5541C, Cohen Building,
mstockstill on DSK4VPTVN1PROD with PROPOSALS




                                                    Since this regulation does not impose                   Acting Administrator, Centers for Medicare             330 Independence Avenue SW.,
                                                    any costs on State or local governments,                & Medicaid Services.
                                                                                                                                                                   Washington, DC 20201.
                                                    the requirements of Executive Order                       Approved: March 7, 2013                                 Please allow sufficient time for mailed
                                                    13132 are not applicable.                               Kathleen Sebelius,                                     comments to be received before the
                                                       In accordance with the provisions of                 Secretary, Department of Health and Human              close of the comment period.
                                                    Executive Order 12866, this rule was                    Services.                                                 3. By hand or courier. You may
                                                    reviewed by the Office of Management                    [FR Doc. 2013–08312 Filed 4–8–13; 4:15 pm]             deliver, by hand or courier, before the
                                                    and Budget.                                             BILLING CODE 4120–01–P                                 close of the comment period, your


                                               VerDate Mar<15>2010   16:39 Apr 09, 2013   Jkt 229001   PO 00000   Frm 00040   Fmt 4702   Sfmt 4702   E:\FR\FM\10APP1.SGM   10APP1
                                                                               Federal Register / Vol. 78, No. 69 / Wednesday, April 10, 2013 / Proposed Rules                                                  21315

                                                    printed or written comments to: Patrice                    B. Summary of the Major Provisions                     punishable by fines of up to $25,000
                                                    Drew, Office of Inspector General,                           This proposed rule would amend the                   and imprisonment for up to 5 years.
                                                    Department of Health and Human                             current safe harbor in at least three                  Violations of the anti-kickback statute
                                                    Services, Cohen Building, Room 5541C,                      ways. First, the proposed rule would                   may also result in the imposition of civil
                                                    330 Independence Avenue SW.,                               update the provision under which                       monetary penalties (CMP) under section
                                                    Washington, DC 20201.                                      electronic health records software is                  1128A(a)(7) of the Act (42 U.S.C. 1320a–
                                                    Because access to the interior of the                      deemed interoperable. Second, we                       7a(a)(7)), program exclusion under
                                                    Cohen Building is not readily available                    propose to remove the requirement                      section 1128(b)(7) of the Act (42 U.S.C.
                                                    to persons without Federal Government                      related to electronic prescribing                      1320a–7(b)(7)), and liability under the
                                                    identification, commenters are                             capability from the safe harbor. Third,                False Claims Act (31 U.S.C. 3729–33).
                                                    encouraged to schedule their delivery                      we propose to extend the sunset date of                  The types of remuneration covered
                                                    with one of our staff members at (202)                     the safe harbor. In addition to these                  specifically include, without limitation,
                                                    619–1368.                                                  proposals, we are soliciting public                    kickbacks, bribes, and rebates, whether
                                                      Inspection of Public Comments: All                                                                              made directly or indirectly, overtly or
                                                                                                               comment on other possible amendments
                                                    comments received before the end of the                                                                           covertly, in cash or in kind. In addition,
                                                                                                               to the safe harbor, including limiting the
                                                    comment period will be posted on                                                                                  prohibited conduct includes not only
                                                                                                               scope of protected donors and adding or
                                                    http://www.regulations.gov for public                                                                             the payment of remuneration intended
                                                                                                               modifying conditions to limit the risk of
                                                    viewing. Hard copies will also be                                                                                 to induce or reward referrals of patients,
                                                                                                               data and referral lock-in.
                                                    available for public inspection at the                                                                            but also the payment of remuneration
                                                    Office of Inspector General, Department                    C. Costs and Benefits                                  intended to induce or reward the
                                                    of Health and Human Services, Cohen                          The proposed rule would modify an                    purchasing, leasing, or ordering of, or
                                                    Building, 330 Independence Avenue                          already-existing safe harbor to the anti-              arranging for or recommending the
                                                    SW., Washington, DC 20201, Monday                          kickback statute. This safe harbor                     purchasing, leasing, or ordering of, any
                                                    through Friday from 8:30 a.m. to 4 p.m.                    permits certain entities to provide                    good, facility, service, or item
                                                    To schedule an appointment to view                         technology-related items and services to               reimbursable by any Federal health care
                                                    public comments, phone (202) 619–                          certain parties to be used to create,                  program.
                                                    1368. Comments received by OIG will                        maintain, transmit, or receive electronic                Because of the broad reach of the
                                                    be shared with the Centers for Medicare                    health records. Parties may voluntarily                statute, concern was expressed that
                                                    & Medicaid Services (CMS).                                 seek to comply with safe harbors so that               some relatively innocuous commercial
                                                    FOR FURTHER INFORMATION CONTACT:                           they have assurance that their conduct                 arrangements were covered by the
                                                    James A. Cannatti III or Heather L.                        will not subject them to any                           statute and, therefore, potentially
                                                    Westphal, Office of Counsel to the                                                                                subject to criminal prosecution. In
                                                                                                               enforcement actions under the anti-
                                                    Inspector General, (202) 619–0335.                                                                                response, Congress enacted section 14 of
                                                                                                               kickback statute, but safe harbors do not
                                                    SUPPLEMENTARY INFORMATION:
                                                                                                                                                                      the Medicare and Medicaid Patient and
                                                                                                               impose new requirements on any party.
                                                                                                                 This is not a major rule, as defined at              Program Protection Act of 1987, Public
                                                      Social Security Act             United States Code       5 U.S.C. 804(2). It is also not                        Law 100–93 (section 1128B(b)(3)(E) of
                                                           Citation                         Citation           economically significant, because it will              the Act; 42 U.S.C. 1320a–7b(B)(3)(E)),
                                                                                                               not have a significant effect on program               which specifically required the
                                                    1128B ........................   42 U.S.C. 1320a–7b                                                               development and promulgation of
                                                                                                               expenditures, and there are no
                                                                                                                                                                      regulations, the so-called ‘‘safe harbor’’
                                                    Executive Summary                                          additional substantive costs to
                                                                                                                                                                      provisions, that would specify various
                                                                                                               implement the resulting provisions. The
                                                    A. Purpose of the Regulatory Action                                                                               payment and business practices that
                                                                                                               proposed rule would update the
                                                                                                                                                                      would not be subject to sanctions under
                                                       Pursuant to section 14 of the Medicare                  provision under which electronic health
                                                                                                                                                                      the anti-kickback statute, even though
                                                    and Medicaid Patient and Program                           records software is deemed
                                                                                                                                                                      they may potentially be capable of
                                                    Protection Act of 1987 and its legislative                 interoperable, remove the requirement
                                                                                                                                                                      inducing referrals of business under the
                                                    history, Congress required the Secretary                   related to electronic prescribing
                                                                                                                                                                      Federal health care programs. Since July
                                                    of Health and Human Services (the                          capability, and extend the safe harbor’s
                                                                                                                                                                      29, 1991, we have published in the
                                                    Secretary) to promulgate regulations                       sunset date (currently set at December
                                                                                                                                                                      Federal Register a series of final
                                                    setting forth various ‘‘safe harbors’’ to                  31, 2013). We expect these proposed                    regulations establishing ‘‘safe harbors’’
                                                    the anti-kickback statute, which would                     changes to continue to facilitate the                  in various areas.1 These OIG safe harbor
                                                    be evolving rules that would be                            adoption of electronic health records                  provisions have been developed ‘‘to
                                                    periodically updated to reflect changing                   technology.                                            limit the reach of the statute somewhat
                                                    business practices and technologies in                     I. Background                                          by permitting certain non-abusive
                                                    the health care industry. In accordance                                                                           arrangements, while encouraging
                                                    with this authority, OIG published a                       A. Anti-Kickback Statute and Safe                      beneficial or innocuous arrangements.’’
                                                    safe harbor to protect certain                             Harbors                                                56 FR 35952, 35958 (July 29, 1991).
                                                    arrangements involving the provision of                       Section 1128B(b) of the Social                        Health care providers and others may
                                                    interoperable electronic health records                    Security Act (the Act) (42 U.S.C. 1320a–               voluntarily seek to comply with safe
                                                    software or information technology and                     7b(b), the anti-kickback statute)                      harbors so that they have the assurance
                                                    training services. The final rule for this                 provides criminal penalties for                        that their business practices will not be
mstockstill on DSK4VPTVN1PROD with PROPOSALS




                                                    safe harbor was published on August 8,                     individuals or entities that knowingly                 subject to any enforcement action under
                                                    2006 (71 FR 45110) and is scheduled to                     and willfully offer, pay, solicit, or                  the anti-kickback statute, the CMP
                                                    sunset on December 31, 2013 (42 CFR                        receive remuneration in order to induce                provision for anti-kickback violations,
                                                    1001.952(y)(13)). The purpose of this                      or reward the referral of business
                                                    proposed rule is to update certain                         reimbursable under any of the Federal                     1 56 FR 35952 (July 29, 1991); 61 FR 2122 (Jan.

                                                    aspects of the electronic health records                   health care programs, as defined in                    25, 1996); 64 FR 63518 (Nov. 19, 1999); 64 FR
                                                                                                                                                                      63504 (Nov. 19, 1999); 66 FR 62979 (Dec. 4, 2001);
                                                    safe harbor and to extend the sunset                       section 1128B(f) of the Act. The offense               71 FR 45109 (Aug. 8, 2006); and 72 FR 56632 (Oct.
                                                    date.                                                      is classified as a felony and is                       4, 2007).



                                               VerDate Mar<15>2010      16:39 Apr 09, 2013   Jkt 229001   PO 00000   Frm 00041   Fmt 4702   Sfmt 4702   E:\FR\FM\10APP1.SGM   10APP1
                                                    21316                  Federal Register / Vol. 78, No. 69 / Wednesday, April 10, 2013 / Proposed Rules

                                                    or the program exclusion authority                      changes to the physician self-referral                 applications, and networks, in various
                                                    related to kickbacks. In giving the                     law electronic health records                          settings, and exchange data such that
                                                    Department of Health and Human                          exception 3 elsewhere in this issue of                 the clinical or operational purpose and
                                                    Services (Department or HHS) the                        the Federal Register. We attempted to                  meaning of the data are preserved and
                                                    authority to protect certain                            ensure as much consistency as possible                 unaltered.’’ Note to paragraph (y) of 42
                                                    arrangements and payment practices                      between our proposed safe harbor                       CFR 1001.952. The current provisions of
                                                    under the anti-kickback statute,                        changes and CMS’s proposed exception                   the electronic health records safe harbor
                                                    Congress intended the safe harbor                       changes, despite the differences in the                state that for purposes of meeting the
                                                    regulations to be updated periodically to               respective underlying statutes. We                     condition set forth in subparagraph
                                                    reflect changing business practices and                 intend the final rules to be similarly                 (y)(2), ‘‘software is deemed to be
                                                    technologies in the health care industry.               consistent. Because of the close nexus                 interoperable if a certifying body
                                                                                                            between this proposed rule and CMS’s                   recognized by the Secretary has certified
                                                    B. The Electronic Health Records Safe
                                                                                                            proposed rule, we may consider                         the software within no more than 12
                                                    Harbor
                                                                                                            comments submitted in response to                      months prior to the date it is provided
                                                       In the October 11, 2005 Federal                      CMS’s proposed rule when crafting our                  to the recipient.’’ 42 CFR 1001.952(y)(2).
                                                    Register (70 FR 59015), we published a                  final rule. Similarly, CMS may consider                We propose to update two aspects of
                                                    notice of proposed rulemaking (the 2005                 comments submitted in response to this                 this deeming provision to reflect the
                                                    Proposed Rule) that would promulgate                    proposed rule in crafting its final rule.              current Office of the National
                                                    two safe harbors to address donations of                                                                       Coordinator for Health Information
                                                    certain electronic health records                       II. Provisions of the Proposed Rule                    Technology (ONC) certification program
                                                    software and directly related training                  A. The Deeming Provision                               for electronic health record technology.
                                                    services, using our authority at section                                                                          First, we propose to modify the
                                                    1128B(b)(3)(E) of the Act. See 70 FR                       Our current electronic health records
                                                                                                                                                                   provision to reflect that ONC is
                                                    59015, 59021 (Oct. 11, 2005). One                       safe harbor specifies at 42 CFR                        responsible for ‘‘recognizing’’ certifying
                                                    proposed safe harbor would have                         1001.952(y)(2) that the donated software               bodies, as referenced in this provision.
                                                    protected certain arrangements                          must be ‘‘interoperable at the time it is              See 42 U.S.C. 300jj–11(c)(5). To become
                                                    involving donations of electronic health                provided to the recipient.’’ As discussed              a certifying body ‘‘recognized’’ by the
                                                    records technology made before the                      in a recently issued Request for                       Secretary, an entity must successfully
                                                    adoption of certification criteria. The                 Information (RFI) from the Department,                 complete an authorization process
                                                    other proposed safe harbor would have                   ‘‘HHS envisions an information rich,                   established by ONC. This authorization
                                                    protected certain arrangements                          person-centered, high performance                      process constitutes the Secretary’s
                                                    involving nonmonetary remuneration in                   health care system where every health                  recognition of a certifying body.
                                                    the form of interoperable electronic                    care provider has access to longitudinal               Accordingly, we propose to revise the
                                                    health records software certified in                    data on patients they treat to make                    phrase ‘‘recognized by the Secretary’’ in
                                                    accordance with criteria adopted by the                 evidence-based decisions, coordinate                   the second sentence of subparagraph
                                                    Secretary of HHS (Secretary) and                        care and improve health outcomes.’’ 78                 (y)(2) to read ‘‘authorized by the
                                                    directly related training services. In the              FR 14793, 14795 (Mar. 7, 2013).                        National Coordinator for Health
                                                    same issue of the Federal Register (70                  Additionally, as emphasized in the RFI,                Information Technology.’’
                                                    FR 59182 (Oct. 11, 2005)), CMS                          interoperability will play a critical role                Second, we propose to modify the
                                                    simultaneously proposed similar                         in supporting this vision.                             portion of this provision concerning the
                                                    exceptions to the physician self-referral               Interoperability is also an important                  time period within which the software
                                                    law.                                                    concept in the context of the electronic               must have been certified. Currently, the
                                                       On August 8, 2006 (71 FR 45110), we                  health records safe harbor. Although we                electronic health records safe harbor
                                                    published a final rule (the 2006 Final                  have long been concerned that parties                  deeming provision requires that
                                                    Rule) that, among other things, finalized               could use the offer or donation of                     software must have been certified
                                                    a safe harbor 2 at 42 CFR 1001.952(y)                   technology to capture referrals, we have               within no more than 12 months prior to
                                                    (the electronic health records safe                     viewed interoperability as a potential                 the date of donation in order to ensure
                                                    harbor) for protecting certain                          mitigating factor, or safeguard, to justify            that products have an up-to-date
                                                    arrangements involving interoperable                    other safe harbor conditions that are less             certification. Subsequent to issuing the
                                                    electronic health records software or                   stringent than might otherwise be                      final electronic health records safe
                                                    information technology and training                     appropriate in the absence of                          harbor, ONC developed a regulatory
                                                    services. In the same issue of the                      interoperability. This is because if the               process for adopting certification
                                                    Federal Register (71 FR 45140 (Aug. 8,                  donated technology is interoperable, the               criteria and standards. That process is
                                                    2006)), CMS simultaneously published                    recipient will be able to use it to                    anticipated to occur on a 2-year
                                                    similar final regulations at 42 CFR                     transmit electronic health records not                 regulatory interval. (For more
                                                    411.357(w). The electronic health                       only to the donor, but to others,                      information, see ONC’s September 4,
                                                    records safe harbor is scheduled to                     including competitors of the donor, and                2012 Final Rule titled ‘‘Health
                                                    sunset on December 31, 2013. 42 CFR                     will not be ‘‘locked in’’ to                           Information Technology: Standards,
                                                    1001.952(y)(13).                                        communications with the donor only.                    Implementation Specifications, and
                                                       The present proposed rule sets forth                 See 70 FR 59015, 59023 (Oct. 11, 2005);                Certification Criteria for Electronic
                                                    certain proposed changes to the                         71 FR 45110, 45126 (Aug. 8, 2006). For                 Health Record Technology, 2014
mstockstill on DSK4VPTVN1PROD with PROPOSALS




                                                    electronic health records safe harbor.                  purposes of this safe harbor,                          Edition; Revisions to the Permanent
                                                    CMS is proposing almost identical                       ‘‘interoperable’’ means ‘‘able to                      Certification Program for Health
                                                                                                            communicate and exchange data                          Information Technology’’ (77 FR
                                                      2 For the reasons discussed in more detail in the
                                                                                                            accurately, effectively, securely, and                 54163).) Further, some certification
                                                    preamble to the 2006 Final Rule, we abandoned the       consistently with different information                criteria could remain unchanged from
                                                    proposal to have separate pre- and post-
                                                    interoperability safe harbors for electronic health     technology systems, software                           one edition of the electronic health
                                                    records arrangements. See 71 FR 45110, 45121                                                                   record certification criteria to the next.
                                                    (Aug. 8, 2006).                                           3 42   CFR 411.357(w).                               Thus, the current 12-month timeframe is


                                               VerDate Mar<15>2010   16:39 Apr 09, 2013   Jkt 229001   PO 00000   Frm 00042   Fmt 4702   Sfmt 4702   E:\FR\FM\10APP1.SGM   10APP1
                                                                           Federal Register / Vol. 78, No. 69 / Wednesday, April 10, 2013 / Proposed Rules                                                    21317

                                                    not in line with the anticipated 2-year                 existing electronic prescribing system,                prescribing capabilities.4 Furthermore,
                                                    regulatory interval and does not account                that meets the applicable standards                    the regulations recently published to
                                                    for the fact that some certification                    under Medicare Part D at the time the                  implement Stage 2 of the EHR Incentive
                                                    criteria may not change from one                        items and services are provided.’’ In the              Programs continue to encourage
                                                    edition to the next. Therefore, we                      preamble to the 2006 Final Rule, we                    physicians’ use of electronic prescribing
                                                    propose to modify this portion of the                   stated that we included ‘‘this                         technology. See 77 FR 53968, 53989
                                                    safe harbor by removing the 12-month                    requirement, in part, because of the                   (Sept. 4, 2012); 77 FR 54163, 54198
                                                    timeframe and substituting a provision                  critical importance of electronic                      (Sept. 4, 2012).
                                                    that more closely tracks the current                    prescribing in producing the overall                      In light of these developments, we
                                                    ONC certification program. Accordingly,                 benefits of health information                         propose to delete the electronic
                                                    we propose that software would be                       technology, as evidenced by section 101                prescribing condition at 42 CFR
                                                    eligible for deeming if, on the date it is              of the [Medicare Prescription Drug,                    1001.952(y)(10). We believe that there
                                                    provided to the recipient, it has been                  Improvement, and Modernization Act of                  are sufficient alternative policy drivers
                                                    certified to any edition of the electronic              2003 (MMA), Pub. L. 108–173].’’ 71 FR                  supporting the adoption of electronic
                                                    health record certification criteria that is            45110, 45125 (Aug. 8, 2006). As we                     prescribing capabilities. We also note
                                                    identified in the then-applicable                       noted, it was ‘‘our understanding that                 that electronic prescribing technology
                                                    definition of Certified EHR Technology                  most electronic health records systems                 would remain eligible for donation
                                                    in 45 CFR part 170. For example, for                    already include an electronic                          under the electronic health records safe
                                                    2013, the applicable definition of                      prescribing component.’’ Id.                           harbor or under the electronic
                                                    Certified EHR Technology identifies                                                                            prescribing safe harbor at 42 CFR
                                                    both the 2011 and the 2014 editions of                     We continue to believe in the critical
                                                                                                                                                                   1001.952(x). Additionally, we
                                                    the electronic health record certification              importance of electronic prescribing.
                                                                                                                                                                   considered whether removing this
                                                    criteria. Therefore, in 2013, software                  However, in light of developments since
                                                                                                                                                                   condition would increase the risk of
                                                    certified to meet either the 2011 edition               the 2006 Final Rule, we do not believe                 fraud or abuse posed by donations made
                                                    or the 2014 edition could satisfy the safe              that it is necessary to retain a                       under the safe harbor; we do not believe
                                                    harbor provision as we proposed to                      requirement related to electronic                      that it would.
                                                    modify it. The current definition of                    prescribing capability in the electronic
                                                    Certified EHR Technology applicable for                 health records safe harbor. First,                     C. The Sunset Provision
                                                    2014, however, identifies only the 2014                 Congress subsequently enacted                             The electronic health records safe
                                                    edition. Thus, based on that definition,                legislation addressing electronic                      harbor is scheduled to sunset on
                                                    in 2014, only software certified to the                 prescribing. In 2008, Congress passed                  December 31, 2013. In adopting this
                                                    2014 edition could satisfy our proposed,                the Medicare Improvements for Patients                 condition of the electronic health
                                                    modified provision. Future                              and Providers Act of 2008 (MIPPA),                     records safe harbor, we acknowledged
                                                    modifications to the definition of                      Pub. L. 110–275. Section 132 of MIPPA                  ‘‘that the need for a safe harbor for
                                                    Certified EHR Technology could result                   authorized an electronic prescribing                   donations of electronic health records
                                                    in the identification of other editions to              incentive program (starting in 2009) for               technology should diminish
                                                    which software could be certified and                   certain types of eligible professionals.               substantially over time as the use of
                                                    satisfy our proposed, modified                          Further, in 2009, Congress passed the                  such technology becomes a standard
                                                    provision. As we stated in the 2006                     Health Information Technology for                      and expected part of medical practice.’’
                                                    Final Rule, we understand ‘‘that the                    Economic and Clinical Health (HITECH)                  71 FR 45110, 45133 (Aug. 8, 2006).
                                                    ability of software to be interoperable is              Act, Title XIII of Division A and Title IV             Some have suggested that we extend the
                                                    evolving as technology develops. In                     of Division B of the American Recovery                 sunset date or even remove the sunset
                                                    assessing whether software is                           and Reinvestment Act of 2009 (ARRA),                   provision entirely.
                                                    interoperable, we believe the                           Pub. L. 111–5. The HITECH Act                             In recent years, electronic health
                                                    appropriate inquiry is whether the                      authorizes CMS to establish Medicare                   record technology adoption has risen
                                                    software is as interoperable as feasible                and Medicaid electronic health record                  dramatically, largely as a result of the
                                                    given the prevailing state of technology                incentive programs for certain eligible                HITECH Act in 2009. For example, see
                                                    at the time [it] is provided to the                     professionals, eligible hospitals, and                 Farzad Mostashari, M.D., ScM., National
                                                    recipient.’’ 71 FR 45110, 45126 (Aug. 8,                critical access hospitals. 42 U.S.C.                   Coordinator, ONC, U.S. Department of
                                                    2006). We believe our proposed change                   1395w–4(o), 1395ww(n), 1395f(l)(3),                    Health and Human Services, Testimony
                                                    is consistent with that understanding                   and 1396b(t). The HITECH Act requires                  before the Subcommittee on Technology
                                                    and our objective of ensuring that                      that eligible professionals under the                  and Innovation Committee on Science
                                                    products are certified to the current                   Medicare and Medicaid electronic                       and Technology, available at http://
                                                    standard of interoperability when they                  health record incentive programs                       science.house.gov/sites/
                                                    are donated. We seek comment on our                     demonstrate meaningful use of certified                republicans.science.house.gov/files/
                                                    proposal, including if removing the 12-                 electronic health record technology,                   documents/HHRG-112-SY19-WState-
                                                    month period will impact donations and                  including the use of electronic                        FMostashari-20121114.pdf and HHS
                                                    whether we should consider retaining it
                                                                                                            prescribing. 42 U.S.C. 1395w–                          News Release, ‘‘More than 100,000
                                                    as an additional means of determining
                                                                                                            4(o)(2)(A)(i). Second, the industry has                health care providers paid for using
                                                    eligibility under the deeming provision.
                                                                                                            made great progress related to electronic              electronic health records,’’ June 19,
mstockstill on DSK4VPTVN1PROD with PROPOSALS




                                                    B. The Electronic Prescribing Provision                 prescribing. Recent analysis by ONC                    2012, available at http://www.hhs.gov/
                                                      Our current electronic health records                 notes an increase in the percentage of                 news/press/2012pres/06/
                                                    safe harbor specifies at 42 CFR                         physicians electronically prescribing via              20120619a.html; see also OIG, OEI
                                                    1001.952(y)(10) that the donated                        electronic health record technology                    Report OEI–04–10–00184,
                                                    software must ‘‘contain [ ] electronic                  from 7 percent in 2008 to 48 percent in
                                                                                                                                                                     4 State Variation in E-Prescribing Trends in the
                                                    prescribing capability, either through an               2012, reflecting rapid increases over the
                                                                                                                                                                   United States—available at: http://
                                                    electronic prescribing component or the                 past few years in the rate of electronic               www.healthit.gov/sites/default/files/us_e-
                                                    ability to interface with the recipient’s               health record-based electronic                         prescribingtrends_onc_brief_4_nov2012.pdf.



                                               VerDate Mar<15>2010   16:39 Apr 09, 2013   Jkt 229001   PO 00000   Frm 00043   Fmt 4702   Sfmt 4702   E:\FR\FM\10APP1.SGM   10APP1
                                                    21318                  Federal Register / Vol. 78, No. 69 / Wednesday, April 10, 2013 / Proposed Rules

                                                    ‘‘Memorandum Report: Use of                             (PDP)] sponsors, and [Medicare                         while reducing the likelihood that
                                                    Electronic Health Record Systems in                     Advantage (MA)] organizations,                         donors will misuse electronic health
                                                    2011 Among Medicare Physicians                          consistent with the MMA-mandated                       record technology donations to secure
                                                    Providing Evaluation and Management                     donors for the electronic prescribing                  referrals. In this regard, we are
                                                    Services,’’ June 2012, available at                     safe harbor.’’ 71 FR 45110, 45127 (Aug.                considering revising the safe harbor to
                                                    https://oig.hhs.gov/oei/reports/oei-04-                 8, 2006); see also 70 FR 59015, 59023                  cover only the original MMA-mandated
                                                    10-00184.pdf. However, while the                        (Oct. 11, 2005). However, ‘‘[m]indful                  donors: hospitals, group practices, PDP
                                                    industry has made great progress, use of                that broad safe harbor protection may                  sponsors, and MA organizations. We are
                                                    such technology has not yet been                        significantly further the important                    considering, and seek comments
                                                    universally adopted nationwide, and                     public policy goal of promoting                        regarding, whether other individuals or
                                                    continued electronic health record                      electronic health records, and after                   entities with front-line patient care
                                                    technology adoption remains an                          carefully considering the                              responsibilities across health care
                                                    important Departmental goal. We                         recommendations of the commenters,                     settings, such as safety net providers,
                                                    continue to believe that as this goal is                we [ ] concluded that the safe harbor                  should be included, and, if so, which
                                                    achieved, the need for a safe harbor for                should protect any donor that is an                    ones. Alternatively, we are considering
                                                    donations of such technology should                     individual or entity that provides                     retaining the current definition of
                                                    continue to diminish over time.                         patients with health care items or                     protected donors, but excluding specific
                                                    Accordingly, we propose to extend the                   services covered by a Federal health                   types of donors. Specifically, we are
                                                    sunset date to December 31, 2016. We                    care program and submits claims or                     considering excluding suppliers of
                                                    selected this date because it corresponds               requests for payment for those items or                ancillary services associated with a high
                                                    to the last year in which one may                       services (directly or pursuant to                      risk of fraud and abuse, because
                                                    receive a Medicare electronic health                    reassignment) to Medicare, Medicaid, or                donations by such suppliers may be
                                                    record incentive payment and the last                   other Federal health care programs (and                more likely to be motivated by a
                                                    year in which one may initiate                          otherwise meets the safe harbor                        purpose of securing future business than
                                                    participation in the Medicaid electronic                conditions).’’ 71 FR 45110, 45127 (Aug.                by a purpose of better coordinating care
                                                    health record incentive program. For                    8, 2006). Notwithstanding this                         for beneficiaries across health care
                                                    more information, see ‘‘CMS Medicare                    conclusion, we indicated that ‘‘[w]e                   settings. In particular, we are
                                                    and Medicaid EHR Incentive Payment                      remain concerned about the potential                   considering excluding laboratory
                                                    Milestone Timeline,’’ available at                      for abuse by laboratories, durable                     companies from the scope of
                                                    http://www.cms.gov/Regulations-and-                     medical equipment suppliers, and                       permissible donors as their donations
                                                    Guidance/Legislation/                                   others, but believe that the safe harbor               have been the subject of complaints. We
                                                    EHRIncentivePrograms/downloads/                         conditions in the [2006 Final Rule] and                are also considering excluding other
                                                    EHRIncentProgtimeline508V1.pdf. As                      the fact that the safe harbor is temporary             high-risk categories, such as durable
                                                    an alternative to this proposed extended                should adequately address our                          medical equipment suppliers and
                                                    sunset date of December 31, 2016, we                    concerns.’’ 71 FR 45110, 45128 (Aug. 8,                independent home health agencies. We
                                                    are also considering establishing a later               2006). We went on to state that ‘‘[w]e                 seek comment on the alternatives under
                                                    sunset date. For example, we are                        intend to monitor the situation. If                    consideration, including comments,
                                                    considering extending the sunset date to                abuses occur, we may revisit our                       with supporting reasons, regarding
                                                    December 31, 2021, which corresponds                    determination.’’ Id.                                   particular types of providers and
                                                    to the end of the electronic health                        We have received comments                           suppliers that should or should not be
                                                    record Medicaid incentives. See id.                     suggesting that abusive donations are                  protected donors given the goals of the
                                                    While these sunset dates are associated                 being made under the electronic health                 safe harbor.
                                                    with specific Medicare and Medicaid                     records safe harbor. For example, some
                                                                                                            responses to our annual solicitation of                2. Data Lock-In and Exchange
                                                    electronic health record incentive
                                                                                                            safe harbors and special fraud alerts                     In the preceding section, we propose
                                                    programs, we recognize that not all
                                                                                                            allege that donors are using the safe                  to limit the scope of permissible donors
                                                    health care providers to whom
                                                                                                            harbor to provide referral sources with                as a means to prevent donations that
                                                    donations can be made are eligible for                                                                         subvert the intent of the safe harbor—
                                                                                                            items and services that appear to
                                                    such incentives. These health care                                                                             because they are used to lock in
                                                                                                            support the interoperable exchange of
                                                    providers include, for example, many in                                                                        referrals—from receiving safe harbor
                                                                                                            information on their face, but, in
                                                    the mental health and behavioral health                                                                        protection. We are also considering
                                                                                                            practice, lead to data and referral lock-
                                                    communities as well as long-term and                                                                           inclusion of new or modified conditions
                                                                                                            in. See, e.g., https://oig.hhs.gov/
                                                    post-acute care facilities. We                                                                                 in the safe harbor as an alternative or
                                                                                                            publications/docs/semiannual/2009/
                                                    specifically solicit comment on our                                                                            additional means of achieving that
                                                                                                            semiannual_fall2009.pdf.
                                                    proposed extension of the sunset date to                   In light of (1) these comments, (2) our             result. We are particularly interested in
                                                    December 31, 2016. We also seek                         continued concern about the potential                  new or modified conditions that will
                                                    comment on whether we should, as an                     for fraud and abuse by certain donors                  help achieve two related goals. The first
                                                    alternative, select a later sunset date and             that we articulated in the 2006 Final                  goal is to prevent the misuse of the safe
                                                    what that date should be.                               Rule,5 and (3) the proposed changes to                 harbor in a way that results in data and
                                                    D. Additional Proposals and                             the electronic health records safe harbor              referral lock-in. The second, related goal
                                                                                                            conditions discussed in this proposed                  is to encourage the free exchange of data
mstockstill on DSK4VPTVN1PROD with PROPOSALS




                                                    Considerations
                                                                                                            rule, we propose to limit the scope of                 (in accordance with protections for
                                                    1. Protected Donors                                     protected donors under the electronic                  privacy). These goals reflect our interest,
                                                       As we stated in the preamble to the                  health records safe harbor, with the                   which we discussed above, in
                                                    2006 Final Rule for the electronic health               continued goal of promoting adoption of                promoting the adoption of interoperable
                                                    records safe harbor, ‘‘[w]e [originally]                interoperable electronic health record                 electronic health record technology that
                                                    proposed to limit the scope of protected                technology that benefits patient care                  benefits patient care while reducing the
                                                    donors under § 1001.952(y) to hospitals,                                                                       likelihood that donors will misuse
                                                    group practices, [prescription drug plan                  5 See   71 FR 45110, 45128 (Aug. 8, 2006).           electronic health record technology


                                               VerDate Mar<15>2010   16:39 Apr 09, 2013   Jkt 229001   PO 00000   Frm 00044   Fmt 4702   Sfmt 4702   E:\FR\FM\10APP1.SGM   10APP1
                                                                           Federal Register / Vol. 78, No. 69 / Wednesday, April 10, 2013 / Proposed Rules                                           21319

                                                    donations to secure referrals. The 2006                 maintenance services; secure messaging                 by which this technology will be
                                                    Final Rule requires donated software to                 (e.g., permitting physicians to                        adopted.
                                                    be interoperable at the time it is donated              communicate with patients through                         The summation of the economic
                                                    to the recipient. The software is deemed                electronic messaging); and training and                impact analysis regarding the effects of
                                                    interoperable if it is certified as                     support services (such as access to help               electronic health records in the
                                                    described above. However, it has been                   desk services).’’ 71 FR 45110, 45125                   ambulatory setting that is presented in
                                                    suggested that even when donated                        (Aug. 8, 2006). It also has been                       the 2006 Final Rule still pertains to this
                                                    software meets the interoperability                     suggested that we modify the regulatory                proposed regulation. 71 FR 45110 (Aug.
                                                    requirements of the rule, policies and                  text of the electronic health records safe             8, 2006). However, since the 2006 Final
                                                    practices sometimes affect the true                     harbor to explicitly reflect this                      Rule, several developments have
                                                    ability of electronic health record                     interpretation. We believe that the                    occurred to make us conclude that it is
                                                    technology items and services to be                     current regulatory text, when read in                  no longer necessary to retain a
                                                    used to exchange information across                     light of the preamble discussion, is                   requirement related to electronic
                                                    organizational and vendor boundaries.6                  sufficiently clear concerning the scope                prescribing capability in the electronic
                                                    We seek comments on what new or                         of covered technology, but we seek                     health records safe harbor. These
                                                    modified conditions could be added to                   input from the public regarding this                   developments include: (1) In 2008,
                                                    the electronic health records safe harbor               issue.                                                 Congress passed the Medicare
                                                    to achieve our two goals and whether                                                                           Improvements for Patients and
                                                                                                            III. Regulatory Impact Statement                       Providers Act of 2008 (MIPPA), Pub. L.
                                                    those conditions, if any, should be in
                                                    addition to, or in lieu of, our proposal                   We have examined the impact of this                 110–275; (2) in 2009, Congress passed
                                                    to limit the scope of permissible donors.               rule as required by Executive Order                    the Health Information Technology for
                                                    For example, 42 CFR                                     12866 on Regulatory Planning and                       Economic and Clinical Health (HITECH)
                                                    1001.952(y)(3)requires, as a condition of               Review (Sept. 30, 1993); Executive                     Act, Title XIII of Division A and Title IV
                                                    the safe harbor, that ‘‘[t]he donor (or any             Order 13563 on Improving Regulation                    of Division B of the American Recovery
                                                    person on the donor’s behalf) [ ] not take              and Regulatory Review (Jan. 18, 2011);                 and Reinvestment Act of 2009 (ARRA),
                                                    any action to limit or restrict the use,                the Regulatory Flexibility Act (RFA)                   Pub. L. 111–5; and (3) an increase over
                                                    compatibility, or interoperability of the               (Sept. 19, 1980, Pub. L. 96–354, codified              the past few years in the rate of
                                                    items or services with other electronic                 at 5 U.S.C. 601 et seq.); section 1102(b)              electronic health record-based
                                                    prescribing or electronic health records                of the Act; section 202 of the Unfunded                electronic prescribing capabilities.
                                                    systems.’’ We solicit comments with                     Mandates Reform Act of 1995 (Mar. 22,                     As discussed in more detail earlier in
                                                    regard to whether this condition could                  1995; Pub. L. 104–4); Executive Order                  the preamble, section 132 of MIPPA
                                                    be modified to reduce the possibility of                13132 on Federalism (August 4, 1999);                  authorized an electronic prescribing
                                                    lock-in.                                                and the Congressional Review Act (5                    incentive program (starting in 2009) for
                                                                                                            U.S.C. 804(2)).                                        certain types of eligible professionals.
                                                    3. Covered Technology                                      Executive Orders 12866 and 13563                    The HITECH Act authorizes CMS to
                                                       We received questions concerning                     direct agencies to assess all costs and                establish Medicare and Medicaid
                                                    whether certain items or services, for                  benefits of available regulatory                       electronic health record incentive
                                                    example services that enable the                        alternatives and, if regulation is                     programs for certain eligible
                                                    interoperable exchange of electronic                    necessary, to select regulatory                        professionals, eligible hospitals, and
                                                    health records data, fall within the                    approaches that maximize net benefits                  critical access hospitals. Also, the
                                                    scope of covered technology under the                   (including potential economic,                         HITECH Act requires that eligible
                                                    electronic health records safe harbor.                  environmental, public health and safety                professionals under the Medicare and
                                                    The answer to such questions depends                    effects, distributive impacts, and                     Medicaid electronic health record
                                                    on the exact items or services that are                 equity). A regulatory impact analysis                  incentive programs demonstrate
                                                    being donated. In the 2006 Final Rule,                  (RIA) must be prepared for major rules                 meaningful use of certified electronic
                                                    we explained that we interpreted the                    with economically significant effects                  health record technology, including the
                                                    term ‘‘ ‘software, information technology               ($100 million or more in any 1 year). We               use of electronic prescribing.
                                                    and training services necessary and                     believe this proposed rule does not                    Specifically, the final regulation of the
                                                    used predominantly’ for electronic                      reach the economic threshold for being                 Stage 2 meaningful use (77 FR 53968
                                                    health records purposes to include the                  considered economically significant and                (Sept. 4, 2012)) includes more
                                                    following, by way of example:                           thus is not considered a major rule. We                demanding requirements for electronic
                                                    [i]nterface and translation software;                   solicit comment on the assumptions and                 prescribing and identifies electronic
                                                    rights, licenses, and intellectual                      findings presented in this initial                     prescribing as a required core measure.
                                                    property related to electronic health                   regulatory impact analysis.                            As a result, beginning in CY 2015 an
                                                    records software; connectivity services,                   The proposed rule would update the                  eligible professional risks a reduction in
                                                    including broadband and wireless                        provision under which electronic health                the Medicare Physician Fee Schedule
                                                    Internet services; clinical support and                 records software is deemed                             amount that will otherwise apply for
                                                    information services related to patient                 interoperable, remove the requirement                  covered professional services if they are
                                                    care (but not separate research or                      related to electronic prescribing                      not a meaningful EHR user for an EHR
                                                    marketing support services);                            capability, and extend the safe harbor’s               reporting period during that year. Our
                                                                                                            sunset date (currently set at December                 intent remains to allow potential
mstockstill on DSK4VPTVN1PROD with PROPOSALS




                                                      6 For more information on interoperability in         31, 2013). Neither this proposed rule                  recipients not to receive products or
                                                    health IT, see ‘‘EHR Interoperability’’ on the          nor the regulation it amends requires                  services they already own, but rather to
                                                    HealthIT.gov Web site at http://www.healthit.gov/
                                                    providers-professionals/ehr-interoperability. For       any entity to donate electronic health                 receive electronic health record
                                                    further discussion of interoperability and other        record technology, but we expect these                 technology that advances its adoption
                                                    health IT issues, see Arthur L. Kellermann and          proposed changes to continue to                        and use. Lastly, according to ONC,
                                                    Spencer S. Jones, ANALYSIS & COMMENTARY:                facilitate the adoption of electronic                  electronic prescribing by physicians
                                                    What It Will Take to Achieve The As-Yet-
                                                    Unfulfilled Promises Of Health Information              health record technology by filling a gap              using electronic health record
                                                    Technology, Health Aff. January 2013 32:163–68.         rather than creating the primary means                 technology has increased from 7 percent


                                               VerDate Mar<15>2010   16:39 Apr 09, 2013   Jkt 229001   PO 00000   Frm 00045   Fmt 4702   Sfmt 4702   E:\FR\FM\10APP1.SGM   10APP1
                                                    21320                  Federal Register / Vol. 78, No. 69 / Wednesday, April 10, 2013 / Proposed Rules

                                                    in December 2008 to approximately 48                    dollars, updated annually for inflation.                (consisting of items and services in the
                                                    percent in June 2012.7 Furthermore, the                 In 2013, that threshold is approximately                form of software or information
                                                    regulations recently published to                       $141 million. This rule will have no                    technology and training services)
                                                    implement Stage 2 of the EHR Incentive                  consequential effect on State, local, or                necessary and used predominantly to
                                                    Programs continue to encourage                          tribal governments or on the private                    create, maintain, transmit, or receive
                                                    physicians’ use of electronic prescribing               sector.                                                 electronic health records, if all of the
                                                    technology. 77 FR 53968, 53989 (Sept.                      Executive Order 13132 establishes                    following conditions are met:
                                                    4, 2012); 77 FR 54163, 54198 (Sept. 4,                  certain requirements that an agency                     *      *     *    *     *
                                                    2012). Due to data limitations, however,                must meet when it promulgates a                            (2) The software is interoperable at
                                                    we are unable to accurately estimate the                proposed rule (and subsequent final                     the time it is provided to the recipient.
                                                    level of impact the electronic health                   rule) that imposes substantial direct                   For purposes of this subparagraph,
                                                    records safe harbor has contributed to                  requirement costs on State and local                    software is deemed to be interoperable
                                                    the increase in electronic prescribing.                 governments, preempts State law, or                     if a certifying body authorized by the
                                                    Therefore, we believe as a result of these              otherwise has Federalism implications.                  National Coordinator for Health
                                                    legislative and regulatory developments                 Since this regulation does not impose                   Information Technology has certified
                                                    advancing in parallel, the increase in                  any costs on State or local governments,                the software to any edition of the
                                                    the adoption of electronic prescribing                  the requirements of Executive Order                     electronic health record certification
                                                    using electronic health record                          13132 are not applicable.                               criteria identified in the then-applicable
                                                    technology will continue without                           In accordance with Executive Order                   definition of Certified EHR Technology
                                                    making it necessary to retain the                       12866, this regulation was reviewed by                  in 45 CFR part 170, on the date it is
                                                    electronic prescribing capability                       the Office of Management and Budget.                    provided to the recipient.
                                                    requirement in the electronic health                    IV. Paperwork Reduction Act                             *      *     *    *     *
                                                    records safe harbor.                                                                                               (13) The transfer of the items and
                                                       The RFA requires agencies to analyze                   This document does not impose
                                                                                                                                                                    services occurs, and all conditions in
                                                    options for regulatory relief of small                  information collection and
                                                                                                                                                                    this paragraph (y) have been satisfied,
                                                    entities, if a rule has a significant impact            recordkeeping requirements.
                                                                                                                                                                    on or before December 31, 2016.
                                                    on a substantial number of small                        Consequently, it need not be reviewed
                                                                                                            by the Office of Management and                         *      *     *    *     *
                                                    entities. For purposes of the RFA, small
                                                    entities include small businesses,                      Budget under the authority of the                         Dated: January 22, 2013.
                                                    nonprofit organizations, and small                      Paperwork Reduction Act of 1995.                        Daniel R. Levinson,
                                                    governmental jurisdictions. Most                        List of Subjects in 42 CFR Part 1001                    Inspector General.
                                                    hospitals and most other providers and                                                                            Approved: March 7, 2013.
                                                    suppliers are small entities, either by                   Administrative practice and
                                                                                                            procedure, Fraud, Grant programs—                       Kathleen Sebelius,
                                                    nonprofit status or by having revenues
                                                                                                            Health, Health facilities, Health                       Secretary.
                                                    of $7.0 million to $34.5 million in any
                                                    1 year. Individuals and States are not                  professions, Maternal and child health,                 [FR Doc. 2013–08314 Filed 4–8–13; 4:15 pm]
                                                    included in the definition of a small                   Medicaid, Medicare, Social Security.                    BILLING CODE 4152–01–P

                                                    entity. The Secretary has determined                      Accordingly, 42 CFR part 1001 is
                                                    that this proposed rule would not have                  proposed to be amended as set forth
                                                    a significant economic impact on a                      below:                                                  FEDERAL COMMUNICATIONS
                                                    substantial number of small entities.                                                                           COMMISSION
                                                                                                            PART 1001—[AMENDED]
                                                       In addition, section 1102(b) of the Act
                                                    requires us to prepare a regulatory                                                                             47 CFR Part 15
                                                                                                            ■ 1. The authority citation for part 1001
                                                    impact analysis if a rule may have a                    continues to read as follows:                           [ET Docket No. 13–49; FCC 13–22]
                                                    significant impact on the operations of
                                                                                                              Authority: 42 U.S.C. 1302, 1320a–7,                   Unlicensed National Information
                                                    a substantial number of small rural
                                                                                                            1320a–7b, 1395u(j), 1395u(k), 1395w–
                                                    hospitals. This analysis must conform to                104(e)(6), 1395y(d), 1395y(e),
                                                                                                                                                                    Infrastructure (U–NII) Devices in the 5
                                                    section 603 of the RFA. For purposes of                 1395cc(b)(2)(D), (E) and (F), and 1395hh; and           GHz Band
                                                    section 1102(b) of the Act, we define a                 sec. 2455, Pub. L. 103–355, 108 Stat. 3327 (31          AGENCY:  Federal Communications
                                                    small rural hospital as a hospital that is              U.S.C. 6101 note).
                                                                                                                                                                    Commission.
                                                    located outside a Metropolitan                          ■ 2. Section 1001.952 is amended by                     ACTION: Proposed rule.
                                                    Statistical Area for Medicare payment                   revising the introductory text, paragraph
                                                    regulations and has fewer than 100                      (y) introductory text, and paragraphs                   SUMMARY:   This document proposes to
                                                    beds. The Secretary has determined that                 (y)(2) and (y)(13), and by removing and                 amend the Commission’s rules
                                                    this proposed rule would not have a                     reserving paragraph (y)(10).                            governing the operation of Unlicensed
                                                    significant impact on the operations of                   The revisions read as follows:                        National Information Infrastructure (U–
                                                    a substantial number of small rural                                                                             NII) devices in the 5 GHz band. The
                                                    hospitals.                                              § 1001.952        Exceptions.                           Commission has gained much
                                                       Section 202 of the Unfunded                            The following payment practices shall                 experience with U–NII devices since it
                                                    Mandates Reform Act of 1995 also                        not be treated as a criminal offense                    first made spectrum available in the 5
mstockstill on DSK4VPTVN1PROD with PROPOSALS




                                                    requires that agencies assess anticipated               under section 1128B of the Act and                      GHz band for U–NII in 1997. The
                                                    costs and benefits before issuing any                   shall not serve as the basis for an                     Commission believes that the time is
                                                    rule whose mandates require spending                    exclusion:                                              now right to revisit the rules. The
                                                    in any 1 year of $100 million in 1995                   *     *     *    *      *                               initiation of this proceeding satisfies the
                                                      7 State Variation in E-Prescribing Trends in the
                                                                                                              (y) Electronic health records items                   requirements of the ‘‘Middle Class Tax
                                                    United States—available at: http://
                                                                                                            and services. As used in section 1128B                  Relief and Job Creation Act of 2012’’
                                                    www.healthit.gov/sites/default/files/us_e-              of the Act, ‘‘remuneration’’ does not                   which requires the Commission to begin
                                                    prescribingtrends_onc_brief_4_nov2012.pdf.              include nonmonetary remuneration                        a proceeding to modify the rules to


                                               VerDate Mar<15>2010   16:39 Apr 09, 2013   Jkt 229001   PO 00000   Frm 00046    Fmt 4702   Sfmt 4702   E:\FR\FM\10APP1.SGM   10APP1
